r
No.

IN THE SUPREME COURT OF THE UNITED STATES
-—0O0—

YI TAI SHAO, AKA Linda Shao
Petitioner - Appellant,
vs.
Tsan-Kuen Wang
Respondent- Appellee
—0O0—

On Petition For A Writ Of Certiorari To the California Sixth District Court of Appeal
regarding its Opinion on June 4, 2019 in H040977 affirming Superior Court of
California, Santa Clara County Judge Theodore Zayner’s Order of March 14, 2014 on
a Remittitur without trial dated January 27, 2012 in H035194, an appeal from
Judge Edward Davila’s Order of September 2009 (S256743 denied review on August
14, 2019)
CERTIFICATE OF WORD COUNT FOR PETITION FOR WRIT OF CERTIORARI
YI TAI SHAO, ESQ. In pro per
SHAO LAW FIRM, PC
4900 Hopyard Road, Ste. 100
Pleasanton, CA 94588-7101
Telephone: (408) 873-3888
FAX: (408) 418-4070
Email: attomeyshao@aol.com
CERTIFICATE OF WORD COUNT
As required by Supreme Court Rule 33.1(h), I certify that the Petition for Writ
of Certiorari submitted after California Supreme Court’s denial of Petition for
Review in Case No. S256743 (appeal from the California Sixth District Court of
Appeal’s order of June 4, 2019 in the case of H040977) contains 8826 words,
excluding the parts of the document that are exempted by Supreme Court Rules 33.1(d).
I declare under penalty of perjury under the laws of the United States that the
foregoing is true and correct to my best knowledge.
Executed on November 12, 2019 in front of a notary public in Hayward, California.
__

^4

A notary public or other officer completing this certificate verifies only the
identity of the Individual who signed the document to which this certificate
Is attached, and not the truthfulness, accuracy, or validity of that document.

f;

YiTai inda Shao
Subscribed and sworn to (or affirmed) before me on this
KENNETH MING XU{
COMM.#2255115

Of

iLf, 2oJX- bv

Y>

Lj~~ day

(ShOLO

C_

NOTARY PUBLIC •CALIFORNIA >
ALAMEDA COUNTY
W
My Commission Expires
AUGUST 20,2022

I

■........
"
' '
. proved to me on the basis
of satisfactory pvidence to be the person(s) who appeared before me.
Signature

N—

(Seal).

•

